No. 19-426

 

In the
Supreme Court of the United States

COMMONWEALTH OF PENNSYLVANIA,
Petitioner,
v.
MICHAEL J. HICKS,

Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Pennsylvania

SSS
CERTIFICATE OF SERVICE

I, Kathryn R. Smith, Counsel of Record for the Respondent in this matter, Michael J. Hicks,
hereby certify that on October 31, 2019, I personally served a true and correct copy of
Respondent's Motion for Leave to File Jn Forma Pauperis and Brief in Opposition upon the
following party at the address and in the manner indicated below, and that all parties required to
be served have been served:

By personal service, hand delivery, to the office of:

JAMES B. MARTIN

District Attorney

Lehigh County Courthouse

455 W. Hamilton Street, Rm. 307

Allentown, PA 18101

Tel No. (610) 782-3100

jamesmartin@lehighcounty.org &

Attorney for Petitioner 8 ยง ae
KATH SR. SMITH

Deputy Public Defender

Lehigh County Courthouse

455 West Hamilton Street
Allentown, PA 18101

Tel. No. (610) 782-3157
kathrynsmith@lehighcounty.org
Counsel of Record for Respondent
